                                            July 18, 1997

MEMORANDUM

SUBJECT:       Final Report: Security of Small Purchase Electronic Data
               Interchange (SPEDI) Local Area Networks (LANs)
               Audit Report No. E1AMR7-15-7012-7100307

FROM:          Patricia H. Hill, Director
               ADP Audits and Assistance Staff (2421)

TO:            Paul A. Wohlleben, Director
               Office of Information Resources Management (3401)

               Betty L. Bailey, Director
               Office of Acquisition Management (3801F)

               Mark Luttner, Acting Deputy Director
               Office of Planning, Analysis, and Accountability (2721)


        Attached is our final report entitled “Security of Small Purchase Electronic Data
Interchange (SPEDI) Local Area Networks (LANs).” The primary objectives of the audit were
to: 1) survey the production SPEDI sites to verify the adequacy of security policy, controls, and
documentation for the SPEDI application and the LANs where it is processed; and 2) to verify
both physical and logical security controls at the SPEDI Headquarters site. This report represents
the opinion of the Office of Inspector General (OIG) and describes problems and recommended
corrective actions the OIG has identified.

        In accordance with EPA Order 2750, you, as action officials, are required to provide this
office a written response to the report within 90 days of the final report date. If corrective actions
will not be complete by the response date, we ask that you describe the actions that are ongoing
and provide a timetable for completions. In addition, please track all action plans and milestone
dates in the Management Audit Tracking System.

       We appreciate your many comments to the recommendations presented in the report and
the many actions you and your staffs have already initiated to address issues concerning the
                                                 2

security of the SPEDI application and its LANs. We have no objection to the further release of
this report to the public. Should you or your staff have any questions regarding this report, please
contact Jim Rothwell, ADP Team Leader, ADP Audits and Assistance Staff, at
(202) 260-1785.

Attachment
       Office of Inspector General
       Report of Audit




    SECURITY OF SMALL PURCHASE
ELECTRONIC DATA INTERCHANGE (SPEDI)
    LOCAL AREA NETWORKS (LANs)

                  JULY 18, 1997

      Audit Report E1AMR7-15-7012-7100307
Inspector General Division
  Conducting the Audit:      ADP Audits and Assistance Staff

Region(s) Covered:           Regions 1 through 10
                             Headquarters

Program Offices Involved:    Office of Acquisition Management
                             Office of Planning, Analysis, and Accountability
                              (part of OCFO)
                             Office of Information Resources Management
                                                 Security of SPEDI Local Area Networks (LANs)


          SPEDI SECURITY CONTROLS NEED IMPROVEMENT


RESULTS IN BRIEF

Survey results revealed that security controls need improvement at all of the responding production
SPEDI site. The survey also indicated significant shortcomings in documentation of security
controls at both application and Local Area Network (LAN)/facility level, as well as disaster
recovery procedures and contingency planning. Five production sites issued no response to our
survey by either the LAN System Administrator (SA) or Information Security Officer (ISO) and,
therefore, we have no assurance that any of these five sites have proper controls. We consider the
absence of management-approved security plans for the SPEDI application and LANs to be a serious
control deficiency, because there is a high risk of potential loss or manipulation of critical
procurement data. Our survey revealed varied reasons for the inadequate amounts of security
documentation and inconsistent implementation of security controls at the production SPEDI sites.
For example, Agency-wide security policy and guidance, implementing the most recent OMB
Circular A-130, has not been finalized. In addition, personnel were unaware that there is interim
EPA guidance to assist in the development of the required security documentation. There is also no
coordinated overall security documentation for the SPEDI application production sites.
Furthermore, ‘assessable unit’ managers are confused about OMB Circular A-130 security plan
requirements and related requirements identified for OMB Circular A-123.


PURPOSE

As part of the analysis of General Controls for the 1996 Audit of Financial Statements, we evaluated
the security controls for the Small Purchases Electronic Data Interchange (SPEDI). At the time of
our evaluation, SPEDI was in production at thirteen sites. These sites include the 10 regions,
Headquarters and at two Contract Management Division sites [Cincinnati and Research Triangle
Park (RTP)]. The focus of this audit was on the development and implementation of security policy
and procedures for LANs that process the application SPEDI. We performed a more detailed audit
of security implementation at the Headquarters SPEDI site. The detailed audit focused on the
presence of logical and physical security controls for that particular site




                                                 1

                                                  Audit Report No. E1AMR7-15-7012-7100307
                                                  Security of SPEDI Local Area Networks (LANs)


BACKGROUND

SPEDI is a part of the Integrated Contract Management System (ICMS) which electronically handles
small purchases. SPEDI directly obtains information on commitments from the Integrated Financial
Management System (IFMS). The procurements or obligations it creates are entered manually into
the IFMS system, although this is scheduled to become an electronic interface in the future. In fiscal
1996 SPEDI handled over $44 million in purchases. This figure will increase in future fiscal years
as SPEDI is implemented at additional sites and as more vendors use electronic data interchange to
conduct business. SPEDI is scheduled to be put into production at EPA laboratories in fiscal 1997.

As the number of production sites grow, the more significant SPEDI’s role in EPA’s procurement
will become. SPEDI is a client/server 1 application which is listed as a ‘Major Regional or Program
System (Level II)’ in EPA’s Information System Inventory. This designation reflects the increasing
reliance of the Agency on LANs as a means of transmitting key information for conducting Agency
business. Although EPA has published LAN Directives and a LAN Operations and Procedures
(LOPS) Manual, little audit work has been performed to verify the implementation of security for
LANs and LAN-based applications.


SCOPE AND METHODOLOGY

We surveyed thirteen sites where SPEDI was in production as of September 1996. This survey
consisted of a set of questions directed to the Information Security Officer (ISO) and to the LAN
Systems Administrator(s) (SAs) at each site. Questions covered the following subjects:
documentation of application and general support system security; implementation of logical and
physical security controls; monitoring and reporting security problems; virus protection; training;
and any security or performance problems encountered.

The documentation requested in the survey included: 1) an Application Security Plan; 2) a LAN/
Facility Security Plan and 3) a Disaster Recovery/Contingency Plan. Application Security Plans and
Disaster Recovery/Contingency Plans were required prior to the OMB Circular A-130 revision in
February 1996. The LAN/Facility Security Plan was a new requirement in February 1996.


       1
                A decentralized application where locally centralized databases (server) are
accessed by individual users via applications on their desktop PCs (client). A Local Area
Network (LAN) connecting the PCs and Server provides access capability. These local databases
may, in turn, feed into and be refreshed from information maintained in a larger consolidated
database.

                                                  2

                                                   Audit Report No. E1AMR7-15-7012-7100307
                                                   Security of SPEDI Local Area Networks (LANs)


Furthermore, OMB Circular A-130 stated that the previous requirements remained in effect until
NIST issues expanded security planning guidance for the Agency to use for the security plans. We
wanted ISOs and LAN Managers to provide security documentation whether the old version or
current.

We also performed a detailed evaluation of the Headquarters SPEDI LAN located in the Fairchild
Building in Washington, D.C. This evaluation was performed in two phases: 1) a walkthrough to
observe implementation of facility security; and 2) an analysis of the operating system (NETWARE)
security, as implemented on the SPEDI Headquarters server known as DCFC1. The LAN security
monitoring package entitled Omniguard/Enterprise System Manager (ESM), by AXENT
Technologies, was used to analyze the NETWARE operating system security. This monitoring
software has been tested by the Security Office of the Enterprise Technical Systems Division (ETSD)
in Research Triangle Park, North Carolina. The criteria this software uses to evaluate NETWARE
Security can be customized and, therefore, was set to reflect EPA Policy and Operational Directives.
Additionally, we risk-ranked controls identified by the ESM as “high”, “moderate” or “low”2. We
based these rankings on: 1) scores provided by ESM using thresholds based on EPA security
directives; 2) information of facility security at the Headquarters location; and 3) information gained
from analyzing more detailed ESM reports.

The field work was performed from September 1996 through March 1997. All work was performed
in Washington, D.C. We conducted this audit in accordance with Government Auditing Standards
(1994 revision) issued by the Comptroller General of the United States. Our audit included tests of
management and related internal controls, policies, standards, and procedures specifically related
to the audit objectives. Because this audit disclosed Agency-level weaknesses related to EPA’s IRM
Program, we also reviewed the OMB Circular A-123 evaluation process to determine why these
weaknesses were not identified internally (see page 7). No other issues came to our attention which
we believed were significant enough to warrant expanding the scope of the audit.




       2
                High risk indicates a condition or control weakness which creates strong potential
that disruptive intrusion could occur and even go undetected for some time; Moderate risk
indicates that a compensating control has reduced the likelihood of intrusion or disruptive
activity that such a condition or weakness could allow; Low risk means that all controls are in
accordance with requirements and that there are no conditions which add risk to the facility or
applications.

                                                  3

                                                   Audit Report No. E1AMR7-15-7012-7100307
                                                 Security of SPEDI Local Area Networks (LANs)


INFORMATION SECURITY REQUIREMENTS AND GUIDANCE

The responsibilities for information security at EPA are decentralized. The Office of Information
Resources Management (OIRM) develops and defines the information security for the Agency.
They disseminate the policies and provide some security training. However, each site with a LAN,
whether it be a region, laboratory or program office must designate an ISO to be responsible for the
overall security of the ADP facilities and applications processed there. In addition, for each LAN
there should be a properly trained LAN Systems Administrator (SA) who is responsible for day to
day implementation, maintenance, and monitoring of security for the LAN(s) they administer.

Office of Management and Budget (OMB) Circular A-130 is entitled “Management of Federal
Information Resources.” Appendix III of this circular is entitled “Security of Federal Automated
Information Systems.” This appendix details the required policy and guidance agencies must provide
to ensure that automated systems have adequate security programs and documentation.

It establishes a minimum set of controls to be included in Federal automated information security
programs; assigns Federal agency responsibilities for the security of automated information; and
links agency automated information security programs and agency management control systems
established in accordance with OMB Circular A-123. The Appendix revises procedures formerly
contained in Appendix III to OMB Circular A-130 (50 FR 52730; December 24, 1985), and also
incorporates requirements of the Computer Security Act of 1987 (P.L.100-235) and responsibilities
assigned in applicable national security directives.

OMB Circular OMB Circular A-123 requires agencies to provide a feedback and reporting procedure
to evaluate the integrity of Federal Programs for which they are responsible. This includes the
management of its information resources. This circular specifically lists “Reviews of systems and
applications conducted pursuant to the Computer Security Act of 1987 (40 U.S.C. 759 note) and
OMB Circular A-130, "Management of Federal Information Resources" as information sources to
be used in assessing and improving management controls OMB Circular A-123 also states that “the
documentation for transactions, management controls, and other significant events must be clear and
readily available for examination”.

EPA Directive 2100 - Information Policy Manual, Chapter 8, contains Agency security requirements
policy. It iterates that EPA considers all of its information to be sensitive and that OMB Circular
A-130 requirements for evaluating security controls should be followed. It also assigns
responsibility for many related functions. EPA’s Information Security Program is OIRM’s
responsibility while “Primary Organization Heads” are required to provide annual assurances that
information resources are adequately protected using the OMB Circular A-123 process. It is this
directive which specifies that: “Senior Information Resource Management Officials (SIRMO) are

                                                 4

                                                  Audit Report No. E1AMR7-15-7012-7100307
                                                 Security of SPEDI Local Area Networks (LANs)


responsible for approving information security plans and certifying sensitive systems within their
primary organizations;” and “Information Security Officers (ISO) are responsible for ensuring that
comprehensive information security programs are in place for installations within their
organizations.” Guidance for implementation of these requirements is found in EPA’s Information
Security Manual (ISM) (Directive 2195) which has been undergoing revision.

Appendix A of EPA’s Information Security Manual (ISM) dated October 23, 1995 was used for the
development of the technical portion of EPA’s Application Security Plan. The ISM complies with
the guidance in OMB 90-08 and can be used. OMB Circular A-130, dated February 1996, states that
until NIST publishes a new Federal Information Processing Standards (FIPS) on Security Plans, the
appendix of OMB Bulletin 90-08 can be used as guidance for Application Security Plans. EPA’s
ISM is currently being updated to comply with the latest OMB Circular A-130 Appendix III. In the
interim, the Chief Information Officer issued a memorandum summarizing the changes in the new
Appendix III. That memorandum, dated April 3, 1996, stated that the ISM was being revised to
comply with the new OMB requirements. Further, the new Agency guidance will require a
consolidated document (i.e., a major application or general support system security plan) which will
combine facility security, disaster recovery, along with application security. In response to our
concerns, on February 21, 1997, EPA’s National Program Manager for Information Security issued
a draft NIST guide, User Guide for Developing and Evaluating Security Plans for Unclassified
Federal Automated Information Systems as interim EPA guidance to the ISOs.

EPA’s Management Integrity Guidance provides guidance and assigns responsibility for the Agency
OMB Circular A-123 process. However, this guidance and Directive 2560 are out of date, because
they both predate the latest OMB Circulars A-123 and A-130.

EPA Enterprise Technology Services Division (ETSD) Directives 310.01 through 310.13 and the
LAN Operations Procedures (LOPS) Manual contain operational guidance and procedures regarding
LAN standards. These sources contain chapters on LAN security.




                                                 5

                                                  Audit Report No. E1AMR7-15-7012-7100307
                                                 Security of SPEDI Local Area Networks (LANs)


SECURITY CONTROLS AT SMALL PURCHASE ELECTRONIC                                              DATA
INTERCHANGE (SPEDI) PRODUCTION SITES NEED IMPROVEMENT

Survey results revealed that security controls need improvement at all of the responding production
SPEDI sites. The survey also indicates significant shortcomings in documentation of security
controls at both application and LAN/facility level, as well as disaster recovery procedures and
contingency planning. According to the survey, there is confusion concerning the need for security
controls, security documentation, and the overall risk associated with SPEDI application. Five
production sites issued no response to our survey by either the LAN SA or the ISO. Therefore, there
is no assurance any of these five sites have designated the required security personnel; implemented
adequate security measures; or produced security documentation required by OMB and the Agency.
We also determined that information system security and security documentation were not being
assessed as part of the Agency’s OMB Circular A-123 process. Improvements were noted in
implementation of security controls at the Headquarters site.

Inadequate Security Implementation At SPEDI Production Sites

None of the thirteen sites surveyed provided security documentation required for reasonable
assurance that general controls are operating properly for the SPEDI application, in compliance with
OMB and Agency requirements. Despite multiple requests3, five production SPEDI sites did not
respond to the survey. Therefore, there is no assurance that anyone is maintaining LAN or facility
security at these sites.

       1. Of the 13 sites surveyed, only 3 responded that there was a Security Plan for the SPEDI
       LAN, either in draft form or incorporated in the region’s security plan. Of these positive
       responses, an actual copy was provided by only one site. Five other sites responded with a
       list of some security measures taken, but did not have either a LAN Support Security Plan
       or a Security Section of a General Support System Security Plan..

       2. Of the 13 sites surveyed, none were able to provide a copy of an Application Security
       Plan. A copy of a draft Security Plan for SPEDI has since been received under separate
       cover. Two sites responded that a draft security plan for the SPEDI application, as a whole,
       was being created by the ICMS development team. Five other sites responded with reasons
       why there was no such a plan.




       3
               Requests made on October 15 and November 4, 1996.

                                                 6

                                                  Audit Report No. E1AMR7-15-7012-7100307
                                                 Security of SPEDI Local Area Networks (LANs)


       3. Of the 13 sites surveyed, two sent Disaster Recovery Plans. Out of the remaining 11 sites,
       six responded that backups were being taken and being stored in a different location.

As part of the survey, we requested copies of the following three security documents for each site:
1) a Security Plan for the SPEDI LAN as required by OMB Circular A-130, and expanded by OMB
Bulletin 90-08 and EPA’s Information Security Manual (ISM); 2) an Application Security Plan for
SPEDI, as required in OMB Circular A-130; and 3) a Disaster Recovery Plan for the SPEDI
application, as detailed in OMB Bulletin 90-08 and EPA’s ISM. The requested documents would
satisfy either the previous or the February 1996 security control requirements. OMB Circular A-
130 currently requires a Major Application Security Plan and a General Support System Security
Plan for the application. The General Support System Plan should contain several components
including a LAN Security Plan and Disaster Recovery Plan for the site processing the SPEDI
application.

We received eight responses to this survey. Among the eight responding sites, there was reasonable
assurance that some of the EPA required logical security was implemented via NetWare, but there
were inconsistencies between individual sites. Although each of the eight responding sites
performed security monitoring, the type of monitoring and the maintenance of monitoring reports
or records was also inconsistent. All eight sites responded that they had adequate virus protection
software and performed full and incremental backups.

OMB Circular A-123 Process Is Not Reporting Security Weaknesses

The OMB Circular A-123 Assurance Letters are not reporting incomplete security documentation
or other security shortcomings which are security weaknesses. We reviewed six of the ten regional
fiscal 1996 OMB Circular A-123 Assurance Letters, as well as the Assurance Letter issued by the
Office of Administration and Resources Management (OARM). None of these letters reported
incomplete security documentation as a control weakness, for either SPEDI or the regional sites.
OMB Circular A-130 requires that management approve security plans at least every three years
through the OMB Circular A-123 process. OMB Circular A-130 also specifies that security control
weaknesses be reported as part of the Agency’s OMB Circular A-123 annual review process.
EPA’s Information Security Program is relying on the managers of the individual sites and program
offices to implement these Federal security requirements or to report information security
weaknesses as part of OMB Circular A-123 process.




                                                7

                                                 Audit Report No. E1AMR7-15-7012-7100307
                                                  Security of SPEDI Local Area Networks (LANs)


Corrective Actions And Compensating Controls Lower Risk At Headquarters Site

Our first test and analysis of logical security implementation at Headquarters SPEDI LAN (executed
on 11-20-96) identified five ‘high risk’ conditions that severely downgraded or negated operating
system security controls:

1.     The number of accounts having the equivalence of ‘supervisor’4 exceeded the number
       allowed in EPA policy;
2.     Several of these ‘supervisory’ accounts were inactive which increases the associated risk of
       misuse;
3.     Agency-mandated password controls were negated by incorrect implementation of certain
       password features;
4.     Some accounts allowed unlimited concurrent logins which greatly increases risk of
       undetected intrusion; and
5.     Many powerful system files were duplicated.

In addition, our analysis identified the following six conditions as ‘moderate’ risk:

1.     DCFC1's AUTOEXEC.NCF file did not remove the DOS operating system from the
       computer console or lock the console keyboard access5;
2.     Improper implementation of operating system intruder detection parameters;
3.     Required password length was too short on some accounts;
4.     Some accounts were not required to change passwords frequently enough;
5.     Some accounts were allowed more than one concurrent login; and
6.     Some accounts did not have the ability to change passwords.

Results of a second test (executed on 12-20-96) of the Headquarter’s server revealed complete
corrections to or significant improvements upon several conditions which had been designated as
‘high risk’ as a result of the first test. A walkthrough of the SPEDI LAN site at Headquarters also
revealed that good physical security controls were in effect.



       4
              Supervisor equivalence is assigned to a user account by the account
SUPERVISOR. It has the same access rights as the original SUPERVISOR, which means that it
can do anything to any file regardless of its contents or origin.
       5
             This was initially downgraded from “high” to “ moderate” risk because
compensating controls limited physical access to the server.

                                                 8

                                                  Audit Report No. E1AMR7-15-7012-7100307
                                                    Security of SPEDI Local Area Networks (LANs)


Corrective actions and/or compensating controls scheduled or implemented will significantly reduce
the level of risk to SPEDI at Headquarters. The level of risk has been reduced to a “moderate risk”
in all but one instance. Duplicate files have been scheduled to be cleaned up and ESM monitoring
software is scheduled to be installed on the server. The other high and moderate risk conditions have
been corrected or addressed by a compensating control. However, the number of accounts with
“supervisory” security equivalence are still not reduced to the level required by EPA policy. The
number of such accounts was reduced to 8 but the Agency (LOPs and Directive 310.09) required
limit is 3.


LACK OF APPROVED SECURITY PLANS CONSTITUTES CONTROL WEAKNESS

We consider the absence of management approved security plans for the SPEDI application and
LANs to be a serious control deficiency, because there is a high risk of potential loss or manipulation
of critical procurement data. The Agency also identifies it as a major system. The Information
Systems Inventory (ISI) describes SPEDI as a Level II Information System, and this indicates that
it is considered to be critical to each of the particular regions or contract management sites it serves.
Although these sites are not in compliance with OMB Circular A-130 and Agency IRM security
directives, the ‘assessable unit’ manager has not identified this as a serious internal control
weakness. Therefore, top management was not reporting or initiating corrective actions through the
Agency’s OMB Circular A-123 process.

The risk of disruption to SPEDI processing and loss of integrity of its data is increased due to
security control weaknesses. Incomplete Security and Disaster Recovery provisions increase
likelihood of exposure6 of SPEDI LANs and the SPEDI application to an undesirable result. This
could create disruption in service or loss of data integrity. Loss of data integrity could also hamper
EPA’s ability to process payments for procurements. In fiscal 1996 SPEDI processed $44 million
of Agency procurements.


SECURITY FOR SPEDI NEEDS INCREASED ATTENTION AT MANY LEVELS

Our survey revealed varied reasons for the inadequate amounts of security documentation and
inconsistent implementation of security controls at the production SPEDI sites. Personnel at these


        6
               An exposure is the probable result (such as logical or physical changes to
processing programs or data which could render the application and/or the data it processes
inaccurate or unavailable) of the occurrence of an adverse event.

                                                   9

                                                    Audit Report No. E1AMR7-15-7012-7100307
                                                  Security of SPEDI Local Area Networks (LANs)


sites were confused about EPA guidance to assist in the development of the required security
documentation. There is also no coordinated overall security documentation for the SPEDI
application for its production sites. Further, the survey indicated security personnel are confused
about their responsibilities. In addition, not all ISOs from these sites have attended an EPA Security
Conference which addressed the latest OMB and EPA guidance. Lastly, inadequate security
documentation is not reported because the June 1994 Agency guidance, under the current OMB
Circular OMB Circular A-123, allows Management to decide what to report.

Agency Policy Needs Updating

Agency-wide security policy and guidance, implementing the most recent OMB Circular A-130,
have not been finalized. EPA management has taken a number of initial steps to publicize the latest
changes to OMB Circular A-130. In April 1996, EPA management provided an Agency-wide
security update summarizing Appendix III of the revised OMB Circular A-130. OIRM management
also provided Agency-wide guidance for Rules of Behavior in June 1996. Management officials
indicated that EPA has not updated guidance on System Security Plans because it is waiting for the
National Institute of Standards and Technology (NIST) to issue revised security planning guidance
as called for in the revised A-130, Appendix III. EPA’s National Information Security Program
Manager is currently revising EPA’s guidance using the most recent draft of NIST’s Federal
guidelines for the development and evaluation of security plans, per the revised Appendix III. In
February 1997, the Program Manager for Information Security provided copies of the Draft “User
Guide for Developing and Evaluating Security Plans for Unclassified Federal Information Systems”
to the ISOs. This provides interim Agency guidance based on current OMB Circular A-130
requirements.

At the time of our field work, there was no official SPEDI-specific guidance provided for the ISOs
or LAN SAs at each site. There is a draft Integrated Contract Management System (ICMS) System
Security Plan and Risk Assessment which covers SPEDI, but it has not yet been distributed to the
production SPEDI sites. OAM management stated that the ICMS draft Security Plan and Risk
Assessment includes: 1) an Application Security Plan; 2) a Security Plan for the SPEDI LANs; and
3) guidance for Disaster Recovery Plans at SPEDI sites. OAM management stated that these
documents will also provide the guidance necessary for individual SPEDI sites to develop their own
Facility and Disaster Recovery Plans. This is in keeping with the new OMB Circular A-130
requirements. These documents are being reviewed by the OARM Senior Information Resource
Management Officer (SIRMO).




                                                 10

                                                   Audit Report No. E1AMR7-15-7012-7100307
                                                  Security of SPEDI Local Area Networks (LANs)


More Training Needed For ISOs And Other Security Personnel

Not all ISOs have received security training. EPA management conducted a security conference in
August 1996. Attendees were provided with security training and guidance on Agency security
documentation. In addition, in March 1997, OIRM conducted an ISO Forum to address similar
security issues. However, not all ISOs were in attendance at these conferences. OMB Circular A-
130 and EPA’s ISM both require training for all employees based on their functions. They also
require that ISOs be designated in writing. The non-responses to the survey provide no assurance
that all production SPEDI sites have a properly designated ISO.

The survey indicated that personnel incorrectly believe: 1) SPEDI is a low risk system;
2) implementation of some security controls meets the requirement for security documentation; and
3) that SPEDI is not yet a production system. Few users and a low volume of transactions were
conditions associated with low risk by respondents at some of the sites. In our opinion, SPEDI is
a high risk system because: 1) it was used for authorization of approximately $44 million of
purchases in fiscal year 1996 and will handle more in future fiscal years; 2) it is part of the
Integrated Contract Management System; and 3) it is a manual feeder system for the Integrated
Financial Management System. Therefore, it is necessary that adequate controls be in place to
protect the integrity of SPEDI and its data. The responses of those sites viewing SPEDI as low risk
indicate need for additional guidance or training to: 1) explain the potential for risk to appropriate
personnel; and 2) require a more formal approach by developing a security plan and disaster recovery
plan.

Agency OMB Circular A-123 Process Needs To Incorporate A-130 Requirements

Our audit noted that EPA’s Resources Management Directive 2560, Internal Controls, dated June
12, 1987, is outdated and does not address the new requirements added by OMB Circular A-130 in
February 1996. An Agency official stated that they are in the process of revising Directive 2560, but
that completion is pending a reorganization of the Resource Management Division (RMD). RMD
also indicated that the National Information Security Program Manager (i.e., OIRM) needed to
provide assessment guidelines. EPA issued interim OMB Circular A-123 guidance under a
memorandum entitled Management Integrity Guidance, dated June 1994. The interim guidance
interprets OMB Circular A-123 as requiring a decentralized approach to reporting integrity
weaknesses. Therefore, the OMB Circular A-123 process relies on the management of each
‘assessable unit’ to determine the integrity requirements of their programs within approved OMB
and Agency guidance. The Assistant Administrators (AAs) and Regional Administrators (RAs) are
also responsible for addressing OMB Circular A-130, OMB Circular A-123 and EPA’s Management



                                                 11

                                                   Audit Report No. E1AMR7-15-7012-7100307
                                                  Security of SPEDI Local Area Networks (LANs)


Integrity Guidance. Agency Directive 2100 Chapter 8 assigns Information Security requirements
to SIRMOs and ISOs, which are under the AAs and RAs.

Whereas ‘assessable unit’ managers should incorporate the Agency security requirements into their
respective OMB Circular A-123 program reviews, our survey results indicated that the ‘assessable
unit’ managers are confused about OMB Circular A-130 security plan requirements and related
requirements identified for OMB Circular A-123. As a result, they are not identifying or reporting
Agency security control weaknesses as part of the OMB Circular A-123 process.

In response to our interim comments, in February 1997, the National Information Program Manager
sent a memorandum to the ISOs mentioning the need to evaluate information security as part of the
OMB Circular A-123 process. This memorandum also requested information regarding the status
of security plans for their applications or general support systems. A draft of “User Guidance for
Developing and Evaluating Security Plans for Unclassified Federal Information Systems” was
provided to assist the ISOs. The Information Resources Management Security Program has not
established a separate feedback mechanism to ensure accountability regarding the status of Agency
security plans because it relies on ‘assessable unit’ managers to identify and report Agency security
control weaknesses under the OMB Circular A-123 process. EPA Directive 2100 states that the
Primary Organization Heads should utilize the OMB Circular A-123 process to provide assurance
on the information resources within their organization. Therefore, OIRM is dependent on the OMB
Circular A-123 process to provide feedback on problems with Agency security plans.

LAN Consolidation Procedures Need Clarification

There are several reasons why proper security controls were not in place when we first tested the
SPEDI LAN at Headquarters. The controls were not correctly established because the LAN SAs had
not developed a security plan based on both EPA policy and SPEDI requirements. Subsequent to
our field work, the ISO provided us a draft security plan for the Fairchild Consolidated Local Area
Network. Also, prior to our evaluation, there was no monitoring software installed on the server
(such as ESM), and NETWARE auditing features were not activated which could identify security
settings. Management officials at Headquarters stated that they plan to obtain ESM software to
monitor the LAN logical security controls. Management officials raised some additional, ongoing
difficulties in establishing controls:

C      Restricting users with supervisory\ access is difficult because our audit was performed after
       an Agency-mandated LAN consolidation which resulted in the server being shared with two
       other offices (Office of Grants and Debarment, Financial Management Division);



                                                 12

                                                  Audit Report No. E1AMR7-15-7012-7100307
                                                Security of SPEDI Local Area Networks (LANs)


C      As part of a server migration, many of the accounts on DCFC1 were copied from one server
       to the other without cleaning them up. This resulted in duplicate accounts or accounts with
       excessive privileges; and
C      Ongoing software upgrades create many duplicate files.

Our audit of ETSD’s Operational Directives 310.01 to 310.13 and LOPS Manual identified no
established Agency guidance for LAN server sharing across multiple organizations.


RECOMMENDATIONS

1. We recommend that the Director for Information Resources Management finalize and implement
Agency policies and guidance to assist ‘assessable unit managers,’ SIRMOs, and ISOs in the
completion, establishment, and assessment of Application and General Support System Security
plans, as required by OMB for fiscal 1997. We also recommend that continued training be provided
to these personnel to better ensure completion of the Security Plans and their assessments.

2. We recommend that the Director for Planning, Analysis, and Accountability update Agency
Integrity Guidance to comply with OMB Circular A-123, dated June 1995.

3. We recommend that the Director for Acquisition Management direct:

       a. The Program Manager, Integrated Contract Management System within Headquarters
       Procurement Operations Division to:

              (1) Coordinate with appropriate SPEDI ISOs the completion and approval of SPEDI
              (ICMS) Application and General Support System Security plans.

              (2) Provide all production SPEDI sites interim guidance for developing a local
              Application Security Plan.

       b. The SPEDI LAN System Administrator for Policy, Training, and Oversight Division’s
       System and Information Management Branch to:

              (1) Complete planned corrective actions to eliminate duplicate files.

              (2) Obtain and install ESM software on the Fairchild Consolidated Local Area
              Network and monitor operational controls.


                                               13

                                                Audit Report No. E1AMR7-15-7012-7100307
                                                  Security of SPEDI Local Area Networks (LANs)


       c. The ISO for Policy, Training, and Oversight Division’s System and Information
       Management Branch to:

               (1) Finalize the draft security plan for the Fairchild Consolidated Local Area
               Network.

               (2) Obtain official guidance from EPA’s National Information Security Program
               Manager regarding the number of supervisory accounts allowed when sharing a
               server, and implement the guidance into security maintenance and ESM monitoring
               practices.


AGENCY RESPONSE AND OIG EVALUATION

In summary, the Agency agreed with six of the eight recommendations in our draft report, partially
agreed with one recommendation, and disagreed with one recommendation by asserting that
corrective action had been sufficiently addressed through another program office’s recent actions.
To date, the Agency has taken a number of positive actions to correct the deficiencies. The report
findings were directed to three distinct action officials and, therefore, we addressed their responses
individually as follows:

In responding to the draft report, the Director for Information Resources Management agreed with
recommendation 1 and provided details on planned and initiated corrective actions. OIRM is
continuing to revise existing Agency policy and guidelines and recently developed new guidance for
security plan development. On July 1, 1997, EPA’s National Program Manager for Information
Security distributed EPA Information Security Planning Guidance (dated June 17, 1997) to all ISOs.
In addition, OIRM conducted training sessions for ISOs and SIRMOs, and consultation services are
available to organizations in Headquarters and the Regions.

OIRM’s response also indicates that ISOs will be responsible for providing SIRMOs with sufficient
information to determine the adequacy of information security practices for systems under their
purview. The response clearly states OIRM’s dependence on the network of ISOs for awareness of
and compliance with OMB A-130 requirements on Information Security Plans. In addition, the CIO
recently issued a memorandum to EPA’s Senior Resource Officials reiterating the need to review
management controls pertaining to the security of Agency information as part of the on-going
Integrity Act process.




                                                 14

                                                   Audit Report No. E1AMR7-15-7012-7100307
                                                   Security of SPEDI Local Area Networks (LANs)


In response to recommendation 2, the Acting Deputy Director for Planning, Analysis, and
Accountability (OPAA) stated that this recommendation should be redirected to the Chief
Information Officer (CIO) and asserted that recent CIO actions had satisfied the OIG’s
recommendation. We agree that the CIO’s memorandum to EPA’s Senior Resource Officials
(SROs) and the Chief Financial Officer (CFO) partially addresses recommendation 2. The OIG
recognizes that the actions of the CIO and OARM are two positive steps toward identifying
Information Security as a potential control weakness and thereby raising the level of attention in the
Agency as a critical internal control. However, these actions do not alleviate OPAA of responsibility
for updating Agency-wide guidance and policies for the Management Integrity Program. Although
individual Regional Administrators and Assistant Administrators may be responsible for interpreting
how integrity guidance applies to their programs, outdated Agency guidance and policies should be
updated to implement current OMB A-123 (June 1995) requirements.

The current OMB Circular A-123 promotes the integration of efforts to meet the requirements of
the Integrity Act with other efforts to improve effectiveness and accountability. It recognizes the
judgement of managers as a key component in assessing controls for their respective program(s).
However, OMB Circular A-123 specifically states that ‘other policy documents may describe
additional specific standards for particular functional or program activites’. It also states that
‘agencies need to plan for how the requirements of this Circular (A-123) will be implemented’. It
goes on to say that ‘a written strategy for internal agency use may help ensure that appropriate action
is taken throughout the year to meet the objectives of the Integrity Act’ and that ‘absence of such a
strategy may itself be a serious management control deficiency’. OIG believes that not having
current integrity guidance and policies for EPA constitutes a serious management control deficiency.
This situation increases the likelihood that the requirements of the Integrity Act will be misconstrued
or ignored altogether. We believe that the Integrity Act’s attempt to reduce unnecessary control
processes or reporting requirements should not be interpreted by OPAA (or EPA) as a reduction or
elimination of any General or Specific management control standards identified in other OMB
Circulars. Until the existing EPA Integrity Act policy and guidance is updated, the OIG will
recommend through the Integrity Act process that the lack of current policy and guidance be reported
as a serious internal control deficiency. We revised recommendation 2 accordingly.

In their draft response to recommendation 3, the Director for Acquisition Management agreed with
the primary findings regarding the improvement of security control at all of the production SPEDI
sites and that documentation of security controls at both the application and LAN/facility level need
to be developed.

In particular, OAM management described their plans to implement recommendation 3a.(1) and
stated that they plan on using the draft guidance User Guide for Developing and Evaluating Security


                                                  15

                                                   Audit Report No. E1AMR7-15-7012-7100307
                                                  Security of SPEDI Local Area Networks (LANs)


Plans for Unclassified Federal Automated Information Systems in developing an Application
Security Plan for the Integrated Contracts Management System (ICMS) family of applications, which
includes SPEDI. A draft ICMS Application Security Plan is scheduled for completion no later than
August 31, 1997, and OAM anticipates finalizing this plan by November 30, 1997. In addition, a
draft General Support System Security Plan for the platform on which these applications operate has
been submitted. Rather than expending effort on finalizing this plan for the short time that OAM
will remain in the Fairchild Building, OAM management will continue working with the Office of
Information Resources Management (OIRM) on a General Support System Security Plan for their
new location, the Ronald Reagan Building.

In their draft response to recommendation 3.a(2), OAM stated that as sections of the ICMS
Application Security Plan are developed, they will be distributed as interim guidance to the SPEDI
operations sites for comments. OAM contended that because the same versions of the ICMS
applications are used throughout the Agency, only one Application Security Plan would be
necessary. However, they added that individual sites will be encouraged to incorporate appropriate
sections of that plan into the local site’s General Support System Security Plan. The ICMS
Application Security Plan will include Disaster Recovery and Contingency Plans for the ICMS and
SPEDI platforms and consolidated databases at Headquarters. The remote sites will be encouraged
to prepare or verify the existence of local Disaster Recovery and Contingency Plans that include
provisions for the ICMS applications.

In addition, OAM stated that the duplicate files had been eliminated and they had attempted to install
the current version of Axent’s OMNIGUARD Enterprise Security Manager Software on the
Fairchild Consolidated LAN. These two corrective actions were initiated in response to
recommendations 3.b(1) and (2).

OAM is currently developing a General Support System Security Plan for the Ronald Reagan
Building. This plan will cover the ICMS applications and all other applications to be operated on
the consolidated LAN. This action was initiated in response to recommendation 3.c(1). In response
to recommendation 3.c(2), OAM also received guidance from the National Information Security
Program Manager on how to establish and justify the number of supervisory accounts required to
manage the Fairchild Consolidated LAN.

While OAM’s response identified many planned and initiated corrective actions, we note that these
actions are not yet fully complete. Therefore, these recommendation will remain as stated in the
draft report. We made some editorial changes to the final report in response to OAM comments.
However, we cannot justifiably delete statements equating absent survey responses to a lack of
proper controls at the non-responding sites. We twice distributed our survey through the ICMS
program manager to those sites where SPEDI was in production at that time. As five of these sites

                                                 16

                                                   Audit Report No. E1AMR7-15-7012-7100307
                                                 Security of SPEDI Local Area Networks (LANs)


were non-responsive to both survey requests, no evidence was offered as to the existence of any
logical or physical controls at the sites. Likewise, we do not find it necessary to make changes
concerning training because training provided by OIRM is detailed both in the text of the report and
earlier in the section for Agency response and OIG evaluation.




                                                17

                                                  Audit Report No. E1AMR7-15-7012-7100307
                Security of SPEDI Local Area Networks (LANs)




THIS PAGE INTENTIONALLY LEFT BLANK




                18

                 Audit Report No. E1AMR7-15-7012-7100307
                                               Security of SPEDI Local Area Networks (LANs)


                                                                                APPENDIX I
                                                                                Page 1 of 2

                                 REPORT DISTRIBUTION

Office of Inspector General

       Acting Inspector General (2410)

       Assistant Inspector General for Audit (2421)

       Principal Deputy Assistant Inspector General for Audit (2421)

       Deputy Assistant Inspector General for Internal Audits (2421)

       Deputy Assistant Inspector General for External Audits (2421)

       Director, Financial Audit Division (2422)

EPA Headquarters

       Acting Director, Office of Information Resources Management (3401)

       Director, Office of Acquisition Management (3801F)

       Acting Deputy Director, Office of Planning, Analysis and Accountability (2721)

       Chief Information Officer (3101)

       Director, Information Resources Management Planning Division (3402)

       Agency Audit Followup Official (3101)
        Attn: Assistant Administrator for Administration and Resources Management

       Agency Audit Followup Coordinator (2710)
        Attn: Audit Management Team

       National Program Manager for Information Security (3402)


                                              19

                                               Audit Report No. E1AMR7-15-7012-7100307
                                               Security of SPEDI Local Area Networks (LANs)


                                                                              APPENDIX I
                                                                              Page 2 of 2


       Special Assistant, Office of Acquisition Management (3801F)

       Audit Liaison (3102)
         Attn: Office of Policy and Resource Management

       Audit Liaison (3802F)
         Attn: Office of Acquisition Management

       Audit Liaison (3401)
        Attn: IRM Policy and Evaluation Division

       Audit Liaison (2721)
        Attn: Office of Planning, Analysis and Accountability

       Program Manager for Integrity (2721)
        Attn: Office of Planning, Analysis and Accountability

       Program Manager, Integrated Contract Management System (3801)

       Information Security Officer
        Attn: Policy, Training, and Oversight Division (3802F)

       LAN Systems Administrator (3802F)
        Attn: Policy, Training, and Oversight Division

       Systems Accountant, Office of the Comptroller (3304)

Research Triangle Park, North Carolina

       Security Officer, Enterprise Technology Services Division (MD-34)




                                             20

                                               Audit Report No. E1AMR7-15-7012-7100307
